No. 19-1241
In The

Supreme Court of the United States
--------------------------

---------------------------

NATIONAL ASSOCIATION OF BROADCASTERS, ET AL.,
Petitioners,
v.

PROMETHEUS RADIO PROJECT, ET AL.,
Respondents.
--------------------------

--------------------------

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
--------------------------

--------------------------

BRIEF OF AMICI CURIAE
THE ABC TELEVISION AFFILIATES ASSOCIATION,
CBS TELEVISION NETWORK AFFILIATES
ASSOCIATION, FBC TELEVISION AFFILIATES
ASSOCIATION, AND NBC TELEVISION
AFFILIATES IN SUPPORT OF PETITIONERS
--------------------------

--------------------------

Mark J. Prak
Counsel of Record
Julia C. Ambrose
BROOKS, PIERCE, MCLENDON,
HUMPHREY & LEONARD LLP
150 Fayetteville Street
Suite 1700
Raleigh, NC 27601
(919) 839-0300
mprak@brookspierce.com

John Feore
Jason Rademacher
COOLEY LLP
1299 Pennsylvania Ave., NW
Suite 700
Washington, DC 20004
(202) 842-7800
jfeore@cooley.com

Counsel for Amici Curiae

Dated: May 22, 2020

THE LEX GROUPDC

1050 Connecticut Avenue, N.W. Suite 500, #5190 Washington, D.C. 20036
(202) 955-0001 (800) 856-4419 www.thelexgroup.com

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ......................................iii
INTERESTS OF AMICI CURIAE ............................. 1
INTRODUCTION AND
SUMMARY OF ARGUMENT .................................... 2
ARGUMENT ............................................................... 5
I. CONGRESS RECOGNIZED THAT THE
LOCAL VIDEO ECOSYSTEM MUST BE
GOVERNED BY OWNERSHIP RULES
THAT REFLECT THE REALITIES OF
THE MODERN VIDEO MARKETPLACE ..... 5
A. The local video marketplace has
undergone dramatic change in recent
decades, but broadcast programming
remains vital to local communities ............ 5
B. Despite dramatic changes in the video
marketplace, FCC rules governing local
media ownership have not kept pace,
contrary to congressional intent ................ 9
C. Ownership rules that no longer reflect
competitive video marketplace pose
obstacles to the production of local news
programming and even threaten the
viability of local television stations.......... 13

ii
D.

II.

the detrimental effect of its decision on
ownership of broadcast outlets by
women and racial minorities .................... 19

TE REVIEW
IS ESSENTIAL TO ENSURE THAT
OBSOLETE OWNERSHIP CONSTRAINTS
DO NOT IRREPARABLY HARM THE
LOCAL VIDEO ECOSYSTEM ...................... 22

CONCLUSION ......................................................... 24

iii
TABLE OF AUTHORITIES
Page(s)
CASES
Prometheus Radio Project v. FCC,
373 F.3d 372 (3d Cir. 2004) ........................... 10, 21
Sinclair Broad. Grp., Inc. v. FCC,
284 F.3d 148 (D.C. Cir. 2002) ............... 3, 6, 10, 11
STATUTE
Pub. L. No. 104-104, ยง 202(h),
110 Stat. 56 (1996), as amended ...................... 3, 6, 10
REGULATIONS
47 C.F.R. ยง 73.622 ..................................................... 10
47 C.F.R. ยง 73.3555 ................................................... 10
RULES
Sup. Ct. R. 37.2 ........................................................... 1
Sup. Ct. R. 37.6 ........................................................... 1
OTHER AUTHORITIES
2010 Quadrennial Regulatory Review Review
and Other Rules Adopted Pursuant to Section
202 of the Telecommunications Act of 1996,
MB Docket No. 09-182, Comments of Lin
Television Corporation (July 12, 2010),
https://ecfsapi.fcc.gov/file/7020522175.pdf .......... 14-15

iv
2018 Quadrennial Regulatory Review: Review
and Other Rules Adopted Pursuant to Section
202 of the Telecommunications Act of 1996, MB
Docket No. 18-349, Comments of the National
Association of Broadcasters (May 29, 2019),
https://ecfsapi.fcc.gov/file/10429077016730/2018
%20NAB%20Quadrennial%20Comments%20and
%20Attachments.pdf ................................................ 13
2018 Quadrennial Regulatory Review: Review
of the Commissio
Rules and Other Rules Adopted Pursuant to
Section 202 of the Telecommunications Act of
1996, MB Docket No. 18-349, Reply
Comments of TEGNA Inc. (May 29, 2019),
https://ecfsapi.fcc.gov/file/10529034256265/TE
GNA%202018%20Quadrennial%20Review%20
Reply%20Comments%20(5-29-2019).pdf ........... 14, 16
2018 Quadrennial Regulatory Review: Review
and Other Rules Adopted Pursuant to Section
202 of the Telecommunications Act of 1996,
MB Docket No. 18-349, Comments of Gray
Television, Inc. (Apr. 29, 2019)
https://ecfsapi.fcc.gov/file/10430725728587/Com
ments%20of%20Gray%20Television%20in%2020
19%20Quadrennial%20Review.pdf .......................... 17
2020 Coronavirus Media Usage Study,
https://www.tvb.org/Public/Research/2020Corona
virusMediaUsageStudy.aspx...................................... 9

v
Alphabet Inc. Form 10-K for fiscal year
ended Dec. 31, 2018,
https://www.sec.gov/Archives/edgar/data/165204
4/000165204419000004/goog10-kq42018.htm ........... 7
Over 200 OTT services now
available in U.S. market alone,
Parks Associates (Aug. 13, 2018),
https://www.parksassociates.com/newsletter/
article/ca-aug2018....................................................... 6
Claudia Kienzle, BIA: 2018 TV Station Revenue
to Reach $27.68B, TVTechnology (Apr. 30, 2018),
https://www.tvtechnology.com/news/bia-2018-tvstation-revenue-to-reach-27-68b ................................ 8
Congressional Research Service, How Changes
in the Economics of Broadcast Television Are
Affecting News and Sports Programming and the
Policy Goals of Localism, Diversity of Voices, and
Competition (Oct. 20, 2010),
https://www.everycrsreport.com/files/20101020_
R41458_6c055f8400515c31a556c677d13466063c
684b24.pdf ............................................................... 7, 8
Edmund Lee, Everyone You Know Just Signed
Up for Netflix, NEW YORK TIMES (Apr. 21, 2020),
https://www.nytimes.com/2020/04/21/business/
media/netflix-q1-2020-earnings-nflx.html ................. 6
J.A. Eisenach & K.W. Caves, The Effects of
Regulation on Economies of Scale and Scope in
TV Broadcasting (2011) ............................................ 13

vi
Jessica Bursztynsky, Disney says it now has
54.5 million Disney+ subscribers (May 5, 2020),
https://www.cnbc.com/2020/05/05/disney-reports33point5-million-disney-plus-subscribers-at-endof-q2.html .................................................................... 6
Lillian Rizzo, Local TV Sees Spike in Viewers,
Drop in Ads in Coronavirus Crisis, THE WALL
STREET JOURNAL (Apr. 3, 2020) .................................. 9
National Association of Broadcasters
Leadership Foundation, Broadcast
Leadership Training Program,
https://www.nabfoundation.org/programs/
broadcast-leadership/ ............................................... 20
National Association of Broadcasters, Television
Financial Report: 2016 Industry Business
Report, Station Revenue, Expenses and Profit
(2016)......................................................................... 15
Nielsen DMA Rankings 2020,
https://mediatracks.com/resources/nielsen-dmarankings-2019/ .......................................................... 15
Ooyala, State of the Broadcast Industry 2019,
(Jan. 2019), http://go.ooyala.com/rs/447-EQK225/images/Ooyala-State-Of-The-BroadcastIndustry-2019.pdf ....................................................... 6
Pappas Arizona License, LLC,
28 FCC Rcd 17048 (2013) ......................................... 19
Pew Research Center Newspapers Fact Sheet,
State of the News Media (June 13, 2018),
https://www.journalism.org/factsheet/newspapers/ ..................................................... 21

vii
US Senate votes financial support for
local newspapers and broadcast outlets,
MERCOPRESS (May 14, 2020),
https://en.mercopress.com/2020/05/14/us-senatevotes-financial-support-for-local-newspapersand-broadcast-outlets ................................................. 9
Withers Broadcasting Co.,
32 FCC Rcd 3179 (2017) ........................................... 19

INTERESTS OF AMICI CURIAE1
Amici Curiae the ABC Television Affiliates
Association, CBS Television Network Affiliates
Association, FBC Television Affiliates Association,
and
non-profit trade associations whose
members consist of local television broadcast stations
throughout the country that are affiliated with each
sion network.
Collectively, the Affiliates Associations represent
more than 600 local television stations in markets
across the United States.
The Associations have a strong interest in the
question presented by the Petition, because their
station-members are subject to the Federal
(
ocal media
ownership rules and significantly impacted by the
requires television broadcasters to structure their
businesses to comply with decades-old ownership
rules that are
1

notice of the intent of amici curiae to file this brief and have
consented to its filing. Pursuant to Rule 37.6, counsel for amici
curiae confirms that no counsel for any party authored this brief
in whole or in part, and no one other than amici curiae and their
counsel made a monetary contribution to the preparation or
submission of this brief.
Undersigned counsel at Cooley LLP previously represented
and, by default, a Respondent here. CMG did not participate on
the merits below and informed this Court and all counsel of
record that it will not participate in this case. Undersigned
counsel does not currently represent CMG in this case.

2
media marketplace.
ownership rules place local broadcasters at a decided
disadvantage against other competitors in the
complex, fast-evolving, highly competitive video
marketplace.
The issue is one of national importance, and
prompt relief is critical. The way must be cleared for
the FCC to discharge its statutory responsibility to
modernize its local media ownership rules, without
further delay, in order to allow television stations to
achieve efficiencies and economies of scale made
possible by consolidation.
If it is not, many
broadcasters particularly those in smaller media
markets will be unable to maintain competitively
viable businesses. Many will suffer the same fate as
local newspapers, and the losses will be felt by
viewers in communities across the country who rely
on local television to provide essential news, weather,
sports, public affairs, and emergency programming.
INTRODUCTION AND
SUMMARY OF ARGUMENT
Local television broadcasters provide a vital public
service in communities across the country. Through
free, over-the-air broadcast signals, viewers in
markets from the largest urban areas to the most
remote rural communities receive national, state, and
local news, weather, public affairs, sports, and
entertainment programming, as well as essential
public health and emergency information.
The
worldwide
coronavirus
pandemic
has
only
accentuated the critical importance of reliable access
to local and national news and emergency information
via local broadcast television.

3
Television stations cannot fulfill that critical role,
though, if their businesses are unable to survive
-paced, increasingly diverse, and
exceedingly competitive media marketplace. Like
every other business, the survival of local television
depends on economic viability. Stations that cannot
compete cannot survive, and broadcasters today are
competing against far more than the handful of other
local television and radio stations and print
newspapers that populated the competitive landscape
video marketplace is the most competitive the world
has ever seen, and it only grows more competitive by
the day. Competitors to broadcast television are now
too numerous to count: cable programmers, satellite
services, Internet-based programming providers,
and subscription video-on-demand platforms, not to
mention online news publishers, video programming
websites, and many more. And the competitors on
that list share a key attribute: In marked contrast to
television broadcasters, most of those competitors are
largely unregulated, and all operate in local markets
unconstrained by ownership limits implemented by
the FCC.
While the media marketplace has undergone
remarkable, even transformative, change in recent
kept pace.2

The Commission has made repeated

This despite the fact that Congress directed the Commission
to keep pace by enacting Section 202(h) nearly a quarter century
ago and that a federal appellate court found fault with the
See Sinclair
Broad. Grp., Inc. v. FCC, 284 F.3d 148, 171 (D.C. Cir. 2002)
(Sentelle, J., concurring and dissenting in part) (describing
in Section 202(h) as
2

4
efforts to update the rules; in fact, the first challenges
tempts to update its local media
ownership rules reached the court system nearly two
decades ago. Since that time, though, the same
divided panel of the Third Circuit Court of Appeals
has retained jurisdiction over all challenges to the
ownership rules and has
rules as Congress directed.
he issue has now
reached a critical juncture. Without
immediate intervention to overcome the Third Circuit
-handed barrier to regulatory relief from
anachronistic ownership restrictions that have not
made sense in the modern media marketplace for
many years, local broadcasters particularly those in
smaller markets face very real threats to their
businesses. And without healthy, economically viable
television stations, there will be no opportunities for
women or racial minorities to own, operate, or invest
in local broadcast businesses at all.
The n
is acute, so that essential broadcast outlets for local
news, weather, sports, public affairs, and emergency
programming are, at least, given relatively equal
footing on which to do business as they work to
marketplace.
-and-see attitude
to justify affirmatively the need for any duopoly rule, with or
without an eight voices
and internal quotation marks omitted)).

5
ARGUMENT
I. CONGRESS RECOGNIZED THAT THE
LOCAL VIDEO ECOSYSTEM MUST BE
GOVERNED BY OWNERSHIP RULES THAT
REFLECT THE REALITIES OF THE
MODERN VIDEO MARKETPLACE
A. The local video marketplace
has
undergone dramatic change in recent
decades, but broadcast programming
remains vital to local communities.
To say that the modern video marketplace is
dynamic, diverse, and highly competitive is an
little if anything like it did when the 1996
statutory obligation to ensure that its rules governing
ownership of local media outlets are periodically
amended or eliminated to reflect the realities of the
competitive marketplace. Since then, not only have
the number and variety of sources of video
programming, including news and information
programming, expanded exponentially; so too have
the platforms and devices available to viewers for
accessing the vast array of video programming options.
No longer must viewers gather around the living
room television set at a predetermined hour to watch
the local evening news. Digital technologies have
transformed the ways in which television stations
deliver, and viewers consume, video content (and the
ways in which advertisers reach audiences). Today,
numerous sources provide a wealth of video
programming, including abundant non-broadcast
content. These programming choices are available to

6
viewers not only on traditional over-the-air broadcast
television stations but also via cable and satellite
providers, telcos, social media sites, direct-toconsumer subscription platforms, and a rapidly
growing number of online video services and so-called
virtual multichannel video programming distributors.3
Subscription service Netflix has more than 180
million subscribers4; Hulu has more than 32 million;
and Disney+ has over 54 million.5 And viewers can
watch that programming anywhere on traditional
television sets and so-called smart TVs, via Internet-

By 2018, more than 200 over-themedia services that offer programming to subscribers over
the Internet were available in the United States.
See
Over 200 OTT services now available in
U.S. market alone, Parks Associates (Aug. 13, 2018),
https://www.parksassociates.com/newsletter/article/ca-aug2018;
see also, e.g., Ooyala, State of the Broadcast Industry 2019, at 4
(Jan. 2019), http://go.ooyala.com/rs/447-EQK-225/images/OoyalaState-Of-The-Broadcast-Industry-2019.pdf
(observing
that
and ad-supported OTT services are steadily
3

video programming has there been such rich and abundant
competition. And none of those OTT competitors even existed in
1996 at which point Congress already had concluded that the
reviewed regularly to determine whether they remained
Sinclair Broad. Grp., 284 F.3d at 154 (quoting Section 202(h)).
4 See Edmund Lee, Everyone You Know Just Signed Up
for
Netflix,
NEW YORK TIMES
(Apr.
21,
2020),
https://www.nytimes.com/2020/04/21/business/media/netflix-q12020-earnings-nflx.html.

See Jessica Bursztynsky, Disney says it now has
54.5
million
Disney+
subscribers
(May
5,
2020),
https://www.cnbc.com/2020/05/05/disney-reports-33point5-milliondisney-plus-subscribers-at-end-of-q2.html.
5

7
connected devices (like Roku and Apple TV), and on
smartphones, tablets, computers, and more.
marketplace can choose from an almost unlimited
universe of live and on-demand video content, made
available by a vast array of service providers and
platforms, and they can access that content any time
they wish to watch it on any number of devices of their
choosing. This is not the video marketplace of 1996
or 2006. Or, frankly, 2016.
The advertising marketplace has evolved in
tandem. Advertising has long provided a primary,
essential revenue stream for local broadcasters,
which is used to fund the production of locally-focused
programming.6 But here too, the last twenty-five
years have brought remarkable changes, and the
increasingly complex and competitive video landscape
has taken a toll on local television stations. Among
other things, the growing prominence of digital
platforms has prompted advertisers to shift dollars
away from traditional broadcast television to cable
and satellite providers, Internet-based digital
platforms, and mobile outlets.7 As a result, local
6

A 2010 Report prepared by the Congressional Research

Congressional Research Service, How Changes in the Economics
of Broadcast Television Are Affecting News and Sports
Programming and the Policy Goals of Localism, Diversity of
Voices, and Competition
https://www.everycrsreport.com/files/20101020_R41458_6c055f
8400515c31a556c677d13466063c684b24.pdf.
As one example, in 2018, Google earned $116.3 billion in
advertising revenues. See Alphabet Inc. Form 10-K for fiscal
year ended Dec. 31, 2018, p. 27, https://www.sec.gov/Archives/
edgar/data/1652044/000165204419000004/goog10-kq42018.htm.
7

8

before.
Marketplace changes and increased competition
have placed enormous financial and operational
pressure on local broadcasters, but they have not
lessened the value and importance of local broadcast
television.8 Broadcasters supply unique, locallyfocused news, weather, public affairs, sports, and
emergency programming targeted toward their local
communities that no other video programming
providers replicate. Netflix and Hulu may offer
abundant libraries of on-demand content and
increasing amounts of original programming; but a
Birmingham resident who seeks live, local weather
coverage about approaching tornados or a viewer in
candidates will turn to his or her local broadcast
station for that information.
The global coronavirus pandemic has underscored
the importance of broadcast television and the trust
viewers place in their local stations. Viewers across
the country have tuned in to local broadcast stations
in even greater numbers than usual for timely,
reliable, and fact-based news and information about
For that same time period, the broadcast industry as a whole
expected to earn just a fraction of that amount $19.3 billion in
over-the-air advertising and digital revenues. See Claudia
Kienzle, BIA: 2018 TV Station Revenue to Reach $27.68B,
TVTechnology (Apr. 30, 2018), https://www.tvtechnology.com/
news/bia-2018-tv-station-revenue-to-reach-27-68b.
8

television news programming continue[d] to decline, Americans
still rel[ied] more on broadcast television than any other media
at 5-6 (footnotes omitted).

9
the COVID-19 crisis specific to their communities.
Recent viewership data confirms the point: In March
2020, viewership of live, local news increased
significantly over the same time period in prior years.9
The importance of local broadcast programming is
indisputable, and it is particularly acute in times of
crisis regardless of whether the crisis deals with
public safety (e.g., a tornado, hurricane, or mass
shooting) or, as recent events highlight, public health.10
B. Despite dramatic changes in the video
marketplace, FCC rules governing local
media ownership have not kept pace,
contrary to congressional intent.
Even though the modern video marketplace looks
nothing like the marketplace of the late 1990s, the
9 See Lillian Rizzo, Local TV Sees Spike in Viewers, Drop
in Ads in Coronavirus Crisis, THE WALL STREET JOURNAL
(Apr. 3, 2020); see also https://www.tvb.org/Public/Research/
2020CoronavirusMediaUsageStudy.aspx
[l]ocal
broadcast TV is #1 f
and
felt that broadcast TV news gave them

At the same time, the pandemic has created severe
financial challenges for local broadcasters. Like virtually
every business in local markets across the country, local
television broadcasters have felt the economic impact of
the coronavirus crisis. Local advertising is the lifeblood of
the local television business, but as local economies have been
devastated by the pandemic, those advertising revenues
have dwindled. See, e.g., US Senate votes financial support for
local newspapers and broadcast outlets, MERCOPRESS (May 14,
2020),
https://en.mercopress.com/2020/05/14/us-senate-votesfinancial-support-for-local-newspapers-and-broadcast-outlets
some local broadcasters have reported as much as
a 90% loss in advertising revenues. This year, NAB estimates
advertising losses for local TV and radio broadcasters will reach
).
10

10
rules that govern ownership of local television outlets
have not been modernized to reflect marketplace
changes. The FCC rules currently in place that limit
ownership of media outlets in local markets television
stations, radio stations, and newspapers and cap the
number of stations a broadcaster can own in a single
market date back decades. The current Local
Television Ownership Rule11 is more than twenty years
old, and the Newspaper/Broadcast Cross-Ownership
Rule12 was enacted in 1975, decades before anyone
had ever heard of Google, Facebook, or Netflix.

The Local Television Ownership Rule permits an entity
to own up to two television stations in a single Designated
11

contours of the stations (as determined by Section 73.622(e) of
application to acquire or construct the station(s) is filed, at least
one of the two stations is not ranked among the top four stations
in the market, based on the most recent all-day (9 a.m. to
midnight) audience share, as measured by Nielsen Media
Research or by any comparable professional, accepted audience
ratings service; and (ii) at least eight independently owned and
operating, full-power commercial and noncommercial TV
stations would remain post-merger in the DMA. See 47 C.F.R.
ยง 73.3555(b). The D.C. Circuit found the rule arbitrary and
capricious in 2002. See Sinclair Broad. Grp., 284 F.3d at 165
(concluding that
its exclusion of non-broadcast media from the eight voices
.
Generally, the Newspaper/Broadcast Cross-Ownership
Rule prohibits the owner of television broadcast station from
directly or indirectly owning, operating, or controlling a daily
newspaper in the same community. See 47 CFR ยง 73.3555(d).
The Third Circuit found the rule to be unnecessary in 2004. See
Prometheus Radio Project v. FCC, 373 F.3d 372, 397-400 (3d Cir.
2004).
12

11
Broadcasters have long recognized that the
outlets are ill-suited to the modern media marketplace.
In regulatory (and judicial) proceedings over nearly
two decades, broadcasters have pressed for sorely
needed updates to those rules. See Sinclair Broad.
Grp., 284 F.3d at 165. And to its credit, over those
years, the Commission has made efforts to identify
and modify outdated ownership restrictions that no
longer reflect the competitive realities of the media
marketplace, as Congress directed. See Pet. 8-12.
In its most recent Order seeking to modernize
the local multiple ownership rules, the FCC once
consolidate, share costs, and achieve economies of
scale can mean the difference between economically
sustainable local-news-producing broadcast operations
and wholly unworkable newsrooms, particularly in
smaller markets:
[T]he Eight-Voices Test denies the public
interest benefits produced by common
ownership
without
any
evidence
of
countervailing benefits to competition from
preserving the requirement. Furthermore,
these markets including many small and
mid-sized markets that have less advertising
revenue to fund local programming are the
places where the efficiencies of common
ownership can often yield the greatest benefits.
Our action in repealing the Eight-Voices Test
will enable local television broadcasters to
realize these benefits and better serve their
local markets.
In particular, the record
suggests that local news programming is
typically one of the largest operational costs for

12
broadcasters; accordingly, stations may find
that common ownership enables them to
provide more high-quality local programming,
especially in revenue-scarce small and midsized markets.13
Several years now have passed since that
acknowledgement, yet many of the same rules the
Commission found outdated in 2017 (and, indeed, in
2002 and 2006) remain in place, because at every
turn, a single panel of the Third Circuit Court of
attempts to
modernize the media ownership rules and has
foreclosed any other federal appellate court from
rulemaking.
limits on ownership that originated years before the
Internet became widely available, before Facebook,
YouTube, and Netflix formed part of the media
millions of viewers to access video programming on
demand on handheld screens.
The incongruity
betw
envisioned by the ownership rules in 1975, 1999, or
even 2006 is staggering, and the consequences of that
discrepancy will prove dire for local television
broadcasters if the path is not cleared for the FCC to
make much-needed updates to its ownership rules.
Pet. App. 152a-153a (footnote omitted). At the same time,
and for many of the same reasons, the Commission modified the
13

do not present public interest harms or that offer potential public
interest benefits that outweigh any
particularly in smaller markets. Id. at 156a.

13
C. Ownership rules that no longer reflect the
-competitive
video marketplace pose obstacles to the
production of local news programming
and even threaten the viability of local
television stations.
Broadcast television stations are businesses, and
like any other business, their continued operation
depends on economic viability. Simply put, local
television broadcasters cannot remain in business if
they cannot compete in an increasingly crowded and
fast-growing marketplace that offers viewers a
multitude of sources of news, information, and
entertainment programming. They certainly cannot
compete in an environment where the outdated local
media ownership rules put back in place by the Third
one hand tied behind their back, as rival video content
and distribution services grow their businesses
without regulatory constraints on the size and reach
of their market presence.
environment, economies of scale and
scope are more important than ever to the viability of
local television stations.14 If not for the regulatory
restrictions on ownership of multiple media outlets in
a single market, broadcasters could address financial
14

See 2018 Quadrennial Regulatory Review: Review of the

Adopted Pursuant to Section 202 of the Telecommunications Act
of 1996, MB Docket No. 18-349, Comments of the National
Association of Broadcasters (May 29, 2019) at 60-61 & n.237
(citing J.A. Eisenach & K.W. Caves, The Effects of Regulation on
Economies of Scale and Scope in TV Broadcasting, at 1-2 (2011)),
https://ecfsapi.fcc.gov/file/10429077016730/2018%20NAB%20Q
uadrennial%20Comments%20and%20Attachments.pdf.

14
and operational challenges and generate efficiencies
and cost savings through, for example, common
ownership of more than a single top-four-rated
television station in a given market. Combined
ownership of multiple television stations, like
television-newspaper combinations, can facilitate
investment in and upgrades of newsgathering
operation, can allow the production or expansion of
local news and information programming, and can
support faster and more accurate reporting on
breaking news and more in-depth reporting on
significant public events and issues, among other
savings and efficiencies.
Those latter points are critical. Local news and
information programming is the backbone of local
te
expensive to produce.15 It requires news directors,
See Pet. App. 152a-153a (
typically one of the largest operational costs for broadcasters;
accordingly, stations may find that common ownership enables
them to provide more high-quality local programming, especially
in revenue-scarce small and mid-sized m
See also, e.g.,
2018 Quadrennial Regulatory Review:
Review of the
15

Adopted Pursuant to Section 202 of the Telecommunications Act
of 1996, MB Docket No. 18-349, Reply Comments of TEGNA Inc.
(May 29, 2019) ( TEGNA Reply Comments ) at
Since 2016,
TEGNA has spent an average of more than $245 million a
year on the production of news and other local content
https://ecfsapi.fcc.gov/file/
10529034256265/TEGNA%202018%20Quadrennial%20Review
%20Reply%20Comments%20(5-29-2019).pdf; 2010 Quadrennial
Regulatory Review
Ownership Rules and Other Rules Adopted Pursuant to Section
202 of the Telecommunications Act of 1996, MB Docket No. 09182, Comments of Lin Television Corporation (July 12, 2010) at

15
editors, fact-checkers, researchers, writers, producers,
videographers, reporters, anchors, meteorologists,
and engineers, as well as news sets and studios,
street-level Doppler weather radar systems, cameras,
editing systems, remote news trucks, transmission
systems, and much more. Even in smaller markets,
broadcasters spend upwards of $1 million annually to
produce local news programming; in the larger
markets, that figure can be as high as $15 million.16
Those expenses are significant, and for many
stations, they are increasingly impossible for a single
station to shoulder.17 This is particularly true in
smaller markets with fewer viewers, where
broadcasters compete for a smaller pot of advertising
revenues. Incurring the significant costs of producing
local news programming in many cases makes
business sense only if those costs can be spread across
two or more stations (or other media outlets). The co-

between $1.3 million (small market) to $8.2 million (midsize
https://ecfsapi.fcc.gov/file/7020522175.pdf.
16 See National Association of Broadcasters, Television
Financial Report: 2016 Industry Business Report, Station
Revenue, Expenses and Profit, Tables 54, 60 & 81 (2016).

The infrastructure and equipment necessary to operate a
local television station and to produce local news costs the same
amount in Glendive, Montana as it does in New York City.
Broadcasters in New York, though, can reach nearly seven
million television households; Glendive the smallest of the 210
markets has only 3,590. See Nielsen DMA Rankings 2020,
https://mediatracks.com/resources/nielsen-dma-rankings-2019/.
With the ability to reach fewer than 4,000 television households,
a broadcaster in Glendive must have more sources of revenue
than those offered by operating a single television station. The
-size-fits-all ownership construct simply does
not fit television broadcasters in smaller markets.
17

16
ownership of multiple television stations in a market,
or of a television station and a local newspaper or radio
station, that the Commission sought to allow (and the
Third Circuit subsequently disallowed) permits costsharing, generates efficiencies, and ultimately enables
the production of a greater quantity and quality of
local news programming. Operating two television
stations in the same market does not cost twice as
much as operating one, and advertising revenues
generated by local news programming aired on a
second in-market station can turn an unprofitable
operation into an economically viable one.
If a local station is struggling to marshal the
significant resources needed to produce local news
programming, the direct, tangible benefits of
economies of scale and scope along with the sharing
of costs could make the difference between the
production of local news or the elimination of that
valuable local programming; in some cases, it could
determine whether the station remains viable and onair at all.
Take, for example, MyNetworkTVaffiliated station KTVD in Denver, Colorado. When
broadcast company TEGNA acquired that station
more than a decade ago, it offered no local news;
today, KTVD airs three hours of news every weekday,
thanks to common ownership and coordination with
sister station KUSA, an NBC television affiliate. 18
The consolidated operations, efficiencies, and cost
savings that enabled KTVD to air local news
programming were possible only because the station
is not among the four highest-rated stations in the
TEGNA would have been barred from purchasing
18

See TEGNA Reply Comments at 10.

17

top-four-rated stations in the same market.
KTVD is a success story that occurred in spite of
rules. The story of KCWY(TV), Gray Tel
NBC-affiliated station in Casper, Wyoming, on the
other hand, demonstrates how those rules can force a
company to choose between producing news or
turning a profit. KCWY is the only Big Four Networkaffiliated station owned by Gray in the CasperRiverton television market. In 2018, the station was
the top-rated and highest-grossing station in its
-rated
newscast and earning between 40 and 50 percent of
had recently invested in upgraded news equipment,
including a new news set and state-of-the-art weather
and newsroom systems.19 Despite its ratings success,
though, the station was not profitable, because the
oo
small to support a stand-alone local television station
in producing its own local newscast.20
See 2018 Quadrennial Regulatory Review: Review of the
Rules
Adopted Pursuant to Section 202 of the Telecommunications Act
of 1996, MB Docket No. 18-349, Comments of Gray Television,
Inc. (Apr. 29, 2019) ( Gray Comments ) at 4-5,
https://ecfsapi.fcc.gov/file/10430725728587/Comments%20of%20G
ray%20Television%20in%202019%20Quadrennial%20Review.pdf.
19

KCWY is located in the Casper-Riverton DMA, which is
han 50,000
households. For 2018, the total over-the-air advertising revenue
was only $4.4 million for the entire market. Network-affiliated
20

amount of advertising revenue in only a matter of weeks. See

18

a second station (or newspaper) in the market to
share the costs of local news production, KCWY was
forced to eliminate its local news programming in
January 2019. KCWY now imports local news from
which Gray owns a station.21
The comparison between the Denver and Casper
situations also illustrates a larger point about the
outdated constraints imposed by the ownership rules
that the Third Circuit decision reinstated. Among
the assumptions underlying the local media
n every
market are necessarily strong stations that
contribute news and other valuable programming
to the local market, that healthy media markets
that every combination of stations or other media
outlets would mean less, rather than more,
valuable local programming being made available
on the whole. In many cases, though, particularly
in smaller markets, even Big Four Network
affiliates struggle to produce original local news
programming and, in some cases, even to remain

21 Not coincidentally, Gray controls two Big Four Network
affiliations in the Cheyenne market: KGWN-TV has a CBS
affiliation on its primary channel and NBC on a multicast
channel. Gray was able to add a network-affiliated channel as a
multicast stream and benefit from the efficiencies and cost
savings of shared operations and program production only
because the Cheyenne market did not have four full-power,
network-affiliated television stations.

19
viable.22 Recognizing this and other market-based
realities, the Commission has attempted to loosen its
local multiple ownership rules. Unfortunately, the
Third Circuit substituted (as it has for nearly twenty
years) its judgment for that of the expert agency,
maintaining archaic rules that competition long ago
rendered unnecessary.
D.
the detrimental effect of its decision on
ownership of broadcast outlets by women
and racial minorities.
T
decision in the need for additional data and analysis
impact of its ownership rules on women and racial
minorities. See Pet App. 34a-42a. But that analysis
overlooks a very real, pragmatic, and imminently
predictable consequence of requiring local media
outlets to continue to labor under long-outdated
ownership constraints: The outdated ownership rules
that the Third Circuit reinstated will make it
exceedingly difficult for local broadcasters and
perhaps impossible for those in smaller markets to
crowded media marketplace, where the competition
for viewers and advertising dollars is growing more
In fact, some stations affiliated with the Big Four
Networks have failed in recent years. See Withers Broadcasting
Co., 32 FCC Rcd 3179, 3182 (2017) (order granting a failing
station waiver allowing Gray to acquire station WVFX(TV) in
the Clarksburg-Weston DMA, a FOX affiliate); Pappas Arizona
License, LLC, 28 FCC Rcd 17048 (2013) (granting a failing
station waiver allowing Blackhawk Broadcasting to acquire
station KSWT(TV) in the Yuma-El Centro DMA, a CBS Affiliate,
despite the absence of eight in
22

20
intense year af
Casper, will not be able to support local news
programming operations; others may fail altogether.
And if local broadcast businesses fail, so too do
opportunities for women and minorities to own those
stations.
To be clear, local broadcasters are committed to
diversity. For two decades, the National Association
of Broadcasters Leadership Foundation has operated
its Broadcast Leadership Training Program, a tenmonth executive MBA-style program that educates
women and minorities about the fundamentals of
purchasing, owning, and operating successful radio
and television stations.23
Multiple broadcaster
groups sponsor the NAB Leadership Training
Program and also offer outreach initiatives to
promote and encourage diversity in hiring, training,
and opportunity within their own organizations. But
those commitments to diversity will be for naught if
Without healthy, economically viable broadcast
businesses, no opportunities for women or racial
minorities to own, operate, or invest in local broadcast
businesses will exist at all. Whatever the data
reflecting ownership of local broadcast stations by
rules inevitably disserve female and racial minority
ownership if local stations cannot provide successful
career opportunities to women, minorities, or
anyone else because their businesses can no longer
pts to
See https://www.nabfoundation.org/programs/broadcastleadership/.
23

21
update its ownership rules ensures that all local
broadcasters, including women and minorities,
remain at a competitive disadvantage in a fastchanging marketplace.
Unless the Commission is allowed to make
predictive judgments and critically needed updates to
its local media ownership rules without judicial
secondis only a matter of time before many local television
stations go the way of local newspapers. 24 No
opportunities for women, minorities, or anyone else
will be available if local media outlets are nonexistent.

24 Subscriptions to weekly print newspapers reached their
peak in 1984, with approximately 63.3 million in total
circulation, and declined to less than 31 million in 2017.
Similarly, newspaper advertising revenues peaked in 2005 at
$49.4 billion and declined to $16.5 billion by 2017. See Pew
Research Center Newspapers Fact Sheet, State of the News
Media (June 13, 2018), https://www.journalism.org/factsheet/newspapers/.
Yet the local media ownership rules
currently in place prohibit cross-ownership of a local television
station and a newspaper a rule that even the Third Circuit
itself found outdated more than fifteen years ago.
See
Prometheus Radio Project, 373 F.3d at 398 reasoned analysis

on newspaper/broadcast cross-ownership was no longer in the
he instant case
reinstated that 1975 rule banning newspaper-broadcast crossownership.

22
II.

TE REVIEW IS
ESSENTIAL TO ENSURE THAT OBSOLETE
OWNERSHIP CONSTRAINTS DO NOT
IRREPARABLY HARM THE LOCAL VIDEO
ECOSYSTEM

Whether local television stations can achieve
critical operational efficiencies and cost savings is
directly, meaningfully, and substantially dictated by
decision,
local television stations find themselves right back
where they were decades ago, prohibited from
combining two or more news-producing facilities
because they would run afoul of the local media
ownership rules, which the FCC has been attempting,
unsuccessfully, to modernize for years. 25
The rules now in place, following the Third Circuit
marketplace that has not existed in decades, and the
Commission has already found that they are no longer
necessary in the public interest as a result of
increased competition. Those rules do not afford local
broadcasters the opportunities to consolidate,
maximize efficiency, and coordinate operations and
the production of news programming that experience
teaches will be essential to their survival. And
broadcasters simply cannot endure another yearslong process in front of the agency, followed by
another appellate process, in order to see longAs just one illustration of the point, local television
stations would be the most logical acquirers of the journalistic
assets of local newspapers. The local ownership rules currently
in place, though, prohibit precisely those sorts of efficient
combinations.
25

23
overdue and sorely-needed updates to the media
ownership rules.
If this Court does not intervene now, the Third
Commission for still more years of fact-finding, data
gathering, and analysis, in an attempt to satisfy the
-textual command to gather
and analyze data reflecting the potential effects of its
rule changes on ownership of broadcast outlets by
women and minorities (which command assumes,
without evidence, that such data exists and can be
collected in the first place). That process will be
followed by another round of agency rulemaking, and
what is almost certain to be further litigation before
the same Third Circuit panel that has invalidated
every attempt by the FCC to update its ownership
rules since 2002. The issue raised by the Petition will
not return to this Court until that process has
concluded, so that once again, it will likely be years
before any possible loosening of the constraints
imposed by the outdated media ownership rules. In
the meantime, the multitude of competing digital
outlets and platforms (like Netflix, YouTube, and
Facebook) will continue to operate (largely
unregulated), consolidate, and draw advertising
revenues away from local broadcast outlets.
In the decades since Congress mandated that the
Commission undertake the process of reviewing its
local media ownership rules, the ability of traditional
broadcast outlets to survive in the highly competitive
modern marketplace while anachronistic local media
ownership rules remain in place has become an issue
of indisputable national importance and significant
practical urgency, particularly for broadcasters in
smaller markets. Outdated ownership rules place

24
increasing competitive strains on their businesses
immediate intervention is acute, and the time is now.
A single panel of the Third Circuit has for many years
maintained a stranglehold over challenges to the
rules, thwarting the unambiguous will of Congress
about appropriate regulation of the fast-changing
marketplace. That judicial obstruction has already
taken a substantial toll on local broadcasters, and
toll may well be fatal, especially for broadcasters in
smaller markets, where economically efficient
operations are particularly crucial, and particularly
challenging.
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
Mark J. Prak
Counsel of Record
Julia C. Ambrose
BROOKS, PIERCE,
McLENDON,
HUMPHREY &
LEONARD LLP
150 Fayetteville Street
Suite 1700
Raleigh, NC 27601
(919) 839-0300
mprak@brookspierce.com
MAY 22, 2020

John Feore
Jason Rademacher
COOLEY LLP
1299 Pennsylvania Ave., NW
Suite 700
Washington, DC 20004
(202) 842-7800
jfeore@cooley.com

